1a
APPENDIX A
SUPREME COURT OF COLORADO
No. 19SC587
ROBERT ANGEL PEREZ,
Petitioner,
v.
THE PEOPLE OF THE STATE OF COLORADO,
Respondent.
February 24, 2020
Court of Appeals Case No. 16CA1180
En Banc.
Opinion.
Petition for Writ of Certiorari DENIED.
CHIEF JUSTICE COATS does not participate.

2a
APPENDIX B
COLORADO COURT OF APPEALS
Court of Appeals No. 16CA1180
City and County of Denver District Court No.
14CR4593
Honorable Martin F. Egelhoff, Judge
The People of the State of Colorado,
Plaintiff-Appellee,
v.
Robert A. Perez,
Defendant-Appellant.
JUDGMENT AFFIRMED
Division V
Opinion by JUDGE RICHMAN
Harris and Tow, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R.
35(e)
Announced June 13, 2019
Philip J. Weiser, Attorney General, Brittany L. Limes, Assistant Attorney General, Denver, Colorado, for Plaintiff-Appellee
Megan A. Ring, Colorado State Public Defender,
Ned R. Jaeckle, Deputy State Public Defender,
Denver, Colorado, for Defendant-Appellant

3a
¶1
Appellant, Robert A. Perez, appeals a judgment of conviction entered on a jury verdict finding
him guilty of first degree murder of his wife. We affirm the judgment.
I. Background
¶2
Perez met his wife, Dennielle Perez, while
they were both working for the same employer. They
were married for sixteen years. At trial, the prosecution presented evidence that Perez emotionally
abused Dennielle during the marriage, and that the
couple’s lifestyle included holding parties in their
basement at which Dennielle performed sexual acts
with other men while Perez took photos and videos.
Both the prosecution and defense presented evidence that Dennielle, at times, appeared sad or depressed to her family and friends. The defense presented further evidence that her sadness or depression stemmed from the couple’s lifestyle and marital
difficulties, including their inability to have children and Dennielle’s dissatisfaction with her career.1 The defense also presented evidence that she
had taken a handful of sleeping pills several days
before her death.
¶3
On August 17, 2014, Perez discovered that
Dennielle was having an affair with an AfricanAmerican man without his knowledge or consent.
Aside from his sense of betrayal, Perez was upset
Dennielle had apparently dreamed of working in law enforcement. However, she had been unable to accomplish that goal
and instead worked the night shift at Chubby’s, a Denver restaurant owned by her family.

1

4a
that his wife’s paramour was African-American. As
a result of this discovery and Perez’s distress and
anger, Dennielle went to stay with her parents that
night. She stayed there for the next two days. During that time, Perez contacted Dennielle repeatedly
and sent her numerous Facebook messages in which
he threatened to expose sexually explicit photos of
her if she did not submit to his demands. On the afternoon of August 19, 2014, Dennielle asked her
brother to take her to meet Perez at his place of
work and her brother did so. This was the last time
she was seen alive by members of her family.
¶4
On August 20, 2014, Perez called the police,
telling them that he had just found his wife dead in
the basement. When police arrived, they found Dennielle’s body lying in the basement next to a shotgun. She was covered in bruises and had a gunshot
wound under her left armpit.
¶5
Perez was charged with Dennielle’s murder.
At trial, the prosecution argued that Perez shot
Dennielle because he was distraught and angry over
Dennielle’s affair with an African-American man. In
his defense, Perez argued that Dennielle committed
suicide because she was afraid that he would release details of their sexual exploits, bringing
shame upon her and her family.
¶6
After his first day of trial, Perez was incarcerated in the Denver County Jail with another inmate, D.P. The two were able to speak in the common area of the jail once Perez returned from jury
selection. Due to circumstances unrelated to this
case, D.P. was thereafter interviewed by police.

5a
During the interview, he told police that Perez had
confessed, in detail, to killing Dennielle. He also asserted that Perez had offered him $25,000 to testify
falsely that he had met Dennielle at a club catering
to sadomasochists, that he and Dennielle had slept
together, and that she had committed suicide because she had been stealing from her family’s restaurant and living a sadomasochistic lifestyle.
¶7
At trial, D.P. was permitted to testify to Perez’s alleged statements. The defense impeached his
testimony by questioning him regarding his extensive felony history and pending charges. However,
the trial court limited defense counsel’s questions
with respect to the facts underlying his convictions
and pending charges, over counsel’s objections.
¶8
At the close of the trial, the jury convicted Perez of first degree murder. Perez now appeals his
conviction on two grounds. First, Perez contends
that the trial court erred when it quashed a subpoena seeking Dennielle’s mental health records.
Second, Perez contends that the trial court erred in
imposing limitations on defense counsel’s cross-examination of D.P. We address each contention in
turn.
II. Medical Records
¶9
Seeking evidence to buttress its theory that
Dennielle was depressed and committed suicide, the
defense served a pretrial subpoena on Kaiser Permanente. The prosecution made a motion to quash
the subpoena, arguing that Dennielle’s mental
health records were protected by the psychologist-

6a
patient privilege and that the personal representative of her estate had not waived the privilege.2 See
§ 13-90-107(1)(g), C.R.S. 2018. On the subpoena’s
return date, the defense argued that it needed Dennielle’s mental health records to support Perez’s allegation that she was depressed and took her own
life.
¶ 10 In a thorough, written order, the trial court
concluded that mental health records are subject to
the psychologist-patient privilege, that this privilege prohibits pretrial discovery of information
within its scope, and that the only basis for authorizing disclosure of such records is an express or implied waiver. Because Dennielle’s personal representative refused to waive the privilege, the court
quashed the subpoena.
¶ 11 Perez now contends that the trial court
should not have quashed the subpoena without an
in camera review of the requested mental health
records, and that doing so violated his constitutional rights under the Due Process Clause, the
Compulsory Process Clause, and the Confrontation
Clause of the United States and Colorado Constitutions. U.S. Const. amends.VI, XIV; Colo. Const. art.
II, §§ 16, 25.
2 Dennielle’s mother was her personal representative. She appeared on the return date and told the trial court that she would
not waive the privilege on behalf of the estate. In its written order, the trial court held that because medical privilege is personal to the patient or her estate under Colorado law, Dennielle’s
mother had the power to waive the privilege or choose not to do
so. People v. Palomo, 31 P.3d 879, 885 (Colo. 2001).

7a
A. Standard of Review
¶ 12 We review a trial court’s resolution of discovery issues, including whether the court should have
conducted an in camera review of subpoenaed documents, for an abuse of discretion. People v. Zapata,
2016 COA 75M, ¶ 20, aff’d, 2018 CO 82, ¶ 69. A
court abuses its discretion if its ruling stems from a
misapplication of the law or is manifestly arbitrary,
unreasonable, or unfair. Id.
¶ 13 Insofar as this case also presents issues of
statutory interpretation, including the scope of the
psychologist-patient privilege in light of federal and
state constitutional constraints, we review these legal questions de novo. Id. at ¶ 21.
B. The Law of Privilege
¶ 14 Colorado’s psychologist-patient privilege
statute protects a patient’s privacy regarding statements made during treatment. § 13-90-107(1)(g).
The statute states that a psychologist “shall not be
examined without the consent of [the patient] as to
any communication made by the client to the [psychologist] . . . .” Id. Its purpose is to secure an “atmosphere of confidence and trust in which the patient is willing to make a frank and complete disclosure of facts, emotions, memories, and fears,” an essential component of effective treatment. L.A.N. v.
L.M.B., 2013 CO 6, ¶ 14 (quoting Jaffee v. Redmond,
518 U.S. 1, 10 (1996)). This same policy underlies
the physician-patient privilege, § 13-90-107(1)(d),
but the supreme court has noted that the policy justification for the statute is “even more compelling”

8a
with respect to the psychologist-patient relationship, People v. Sisneros, 55 P.3d 797, 800 (Colo.
2002).
¶ 15 Once the privilege attaches, an undisputed
fact in this case, it protects both testimonial disclosures and pretrial discovery of mental health records. Id. The statute’s plain language appears to
preclude the compelled production of mental health
records unless the privilege is waived. Id. (citing
Clark v. Dist. Court, 668 P.2d 3, 9 (Colo. 1983), for
the proposition that the statutory language “without the consent” of the patient means waiver is the
only basis for permitting disclosure of privileged information); see also People v. Tauer, 847 P.2d 259,
261 (Colo. App. 1993). This limitation on a court’s
power to compel discovery encompasses not only
disclosure to third parties, but also production of
the records for in camera review by the court. Sisneros, 55 P.3d at 800.
¶ 16 In People v. District Court, 719 P.2d 722, 72627 (Colo. 1986), the supreme court considered
whether, in the absence of a waiver, a defendant
might nonetheless be allowed some access to the victim’s mental health records based on his rights under the Confrontation Clauses of the State and Federal Constitutions. The court concluded that because there was no waiver or “particularized factual
showing” that the defendant needed the records to
effectively protect his confrontation rights, an in
camera review was improper. Id. at 727. Thus, the
court acknowledged that a “particularized factual

9a
showing” might overcome the protections of the psychologist-patient privilege in order to protect a defendant’s constitutional rights. Id.
C. Constitutional Limitations on Privilege
¶ 17 Similarly, Perez argues here that although
the language of the privilege statute is absolute and
Colorado courts have largely interpreted it as such,
where a patient’s privilege claim conflicts with a defendant’s constitutional right to present a complete
defense, the statutory privilege must yield to the
constitutional right.
¶ 18 Indeed, the United States Supreme Court has
recognized a constitutional right to present a complete defense. In Crane v. Kentucky, 476 U.S. 683
(1983), the Supreme Court stated that “[w]hether
rooted directly in the Due Process Clause of the
Fourteenth Amendment . . . or in the Compulsory
Process or Confrontation clauses of the Sixth
Amendment . . . the Constitution guarantees criminal defendants ‘a meaningful opportunity to present
a complete defense.’” Id. at 690 (quoting California
v. Trombetta, 467 U.S. 479, 485 (1984)). Moreover,
the Supreme Court has, in fact, held that a victim’s
statutory right may yield to a defendant’s right to
present a complete defense under particular circumstances. Pennsylvania v. Ritchie, 480 U.S. 39, 57-58
(1987).
¶ 19 In Ritchie, relying on a due process framework, the Court concluded that Pennsylvania’s privilege statute did not prevent a trial court’s in camera review of child abuse records gathered by a state
investigative agency. The Court’s reasoning relied

10a
on the fact that the statute, by its terms, allowed
disclosure of privileged information upon order of
the trial court. Id. Therefore, the Court held that
the privilege was not absolute, and the statute’s language contemplated at least an in camera review by
the trial court. Id.
¶ 20 Subsequent to Ritchie, our supreme court has
not recognized any per se exception to the psychologist-patient privilege based on a defendant’s due
process or confrontation rights.3 In Dill v. People,
927 P.2d 1315, 1325 (Colo. 1996), the court reaffirmed its holding in District Court, explicitly rejecting a defendant’s contention that, in light of the
holding in Ritchie, his due process rights entitled
him to all of the victim’s mental health records despite the psychologist-patient privilege. The Dill
court distinguished the language of Colorado’s psychologist-patient privilege statute from the statutory language at issue in Ritchie, noting that section
13-90-107(1)(g) contains no provision allowing for
disclosure based on an order of the court. Id. at
1324. The court again concluded that Colorado does
not permit in camera review of mental health records where defendant has no particular reason to

It is doubtful the Perez’s confrontation rights are implicated
with respect to the subpoena in this case. Those rights are trial
rights, and do not support a defendant’s attempt to compel pretrial discovery. Zapata v. People, 2018 CO 82, ¶ 48. Furthermore,
there is no indication in the record that Dennielle’s psychologist
intended to testify against Perez and obviously Dennielle was
unavailable to testify.

3

11a
believe that such records contain exculpatory information necessary for his defense. Id. at 1324-25.
¶ 21 Later, in People v. Wittrein, 221 P.3d 1076
(Colo. 2009), a defendant again challenged a victim’s right to keep her mental health records confidential under the psychologist-patient privilege.
The court decided Wittrein on non-constitutional
grounds, concluding only that the victim had not
placed her mental health at issue and therefore had
not waived the privilege. Id. at 1083-84. Nonetheless, in response to the defendant’s argument that
the trial court should still conduct an in camera review, the supreme court stated that the privilege
“may not yield to [defendant’s] bare request for the
records, hoping that they may contain exculpatory
information.” Id. at 1084 n.7. In his concurrence,
Justice Martinez noted, “the primary issue raised
by the defense is that due process rights trump the
privileges associated with a victim’s mental health
records.” Id. at 1086 (Martinez, J., concurring in
judgment only). He concluded that
without eliminating the possibility that
there may be times when the due process
clause requires that the trial court conduct
an in camera review of privileged records . .
. in the absence of a particularized showing
that the records contain exculpatory information not otherwise available to the defendant, in camera review is not required.
Id. at 1088.
¶ 22 Thus, in the absence of a particularized showing that mental health records contain statements

12a
or information necessary to vindicate a defendant’s
right to present a complete defense, Colorado’s psychologist-patient privilege does not allow trial
courts to conduct an in camera review of mental
health records unless a patient has waived the privilege. Zapata, 2018 CO 82, ¶ 52 (stating that for a
court to review material protected by a statutory
privilege, the initial offer of proof must be more than
an assertion that the victim may have made exculpatory statements).
D. Analysis
¶ 23 In this case, on the subpoena’s return date,
defense counsel made the following showing in support of the subpoena:
Mr. Perez indicated in his interviews
that there were issues with [Dennielle’s]
mental health state and that she was – in
fact, due to depression . . . seeking medical
attention in the form of psychotherapy from
Kaiser Permanente. . . . That would tend to
support that she was depressed, and because she was depressed, she may have
taken her own life.
¶ 24 Thus, the basis for the defense request was
Perez’s bare assertion that Dennielle was depressed, that she had sought therapy from the subpoenaed provider, and that depression may have led
to suicide.
¶ 25 Although we recognize that a particularized
showing may be able to overcome limitations on discovery created by the psychologist-patient privilege

13a
under extraordinarily narrow circumstances in Colorado, we conclude that the trial court did not abuse
its discretion in finding that Perez’s constitutional
right to present a defense should not overcome Dennielle’s claim of privilege.
¶ 26 Perez’s simple assertion that Dennielle may
have been depressed and may have discussed her
depression with her mental health provider does not
constitute a particularized showing that her records
are likely to contain exculpatory information necessary for Perez’s defense that the victim committed
suicide. The defendant made no showing regarding
when Dennielle saw the mental health provider, or
if it was temporally close to the date of her death.
The subpoena to the mental health provider contained no time frame for the period of records requested. Perez was essentially asking the trial court
to make an evidentiary leap without factual support
when he asserted that any diagnosis of depression
would mean that the records likely contain evidence
Dennielle was suicidal. These broad assertions are
insufficient to overcome Colorado’s strong public
policy interest in securing the privacy of mental
health records. Dist. Court, 719 P.2d at 727 (noting
the paramount importance of keeping such records
confidential).
¶ 27 Further, the record shows that Perez was not,
in fact, prevented from presenting substantial evidence that Dennielle was suicidal. In addition to Perez’s initial assertions to police regarding Dennielle’s suicidal ideations, the jury heard Dennielle’s friends and family testify that she had bouts
of intense sadness and that she had, on occasion,

14a
discussed suicide while vowing never to do it. Dennielle’s brother testified that she told him she took
sleeping pills the Sunday before her death and wandered away from the house. The jury also saw Facebook posts from Dennielle indicating that she felt
hopeless and lonely. Perez’s mother testified that
Dennielle had shown symptoms of depression. The
county medical examiner, testifying as an expert for
the prosecution, stated that he could not rule out
suicide. And perhaps most tellingly, Perez presented an expert witness in blood pattern analysis
and crime scene reconstruction who testified to his
opinion that Dennielle died from a self-inflicted
gunshot wound.
¶ 28 Referring to all this evidence, counsel for Perez argued in closing that Dennielle did not die at
his hands.
¶ 29 We therefore perceive no error in the trial
court’s ruling.
III. Limitations on Cross-Examination
¶ 30 Perez next contends that the trial court erred
when it placed limitations on his right, under the
Confrontation Clauses of the United States and Colorado Constitutions, to cross-examine D.P., to whom
Perez allegedly confessed regarding (1) D.P.’s motives for testifying; and (2) specific instances of conduct that demonstrated D.P.’s dishonest character.
U.S. Const. amend. VI; Colo. Const. art. II, § 16;
CRE 608(b).

15a
A. Standard of Review
¶ 31 A trial court has substantial discretion with
respect to the admissibility of evidence, including
limitations on a defendant’s cross-examination of a
witness. Merritt v. People, 842 P.2d 162, 166-67
(Colo. 1992). A trial court may control the scope and
duration of cross-examination to “assist the truthfinding process; to avoid wasting time; and to protect witnesses from harassment, undue embarrassment, or danger to his or her personal safety.” Id. at
166. In addition, a trial court may exclude evidence
that is irrelevant or unduly prejudicial. CRE 402,
403.
¶ 32 Where a defendant’s confrontation rights
may have been violated as a result of a trial court’s
limitation on cross-examination, we review these
possible violations de novo. People v. Houser, 2013
COA 11, ¶ 57.
B. Law
¶ 33 A defendant’s constitutional right to confront
the witnesses against him implicates two different
elements of trial. First, a defendant has a right to
have adverse witnesses physically present in court.
Merritt, 842 P.2d at 165-66. Second, a defendant
must be allowed to effectively cross-examine witnesses. Id.
¶ 34 To avoid violating a defendant’s confrontation
rights, a court must not prohibit a defendant “from
engaging in otherwise appropriate cross-examination designed to show a prototypical form of bias on
the part of the witness,” which leaves the jury with

16a
a “significantly different impression of the witness’s
credibility.” Houser, ¶ 59 (quoting Kinney v. People,
187 P.3d 548, 559 (Colo. 2008)). In other words, the
defendant must be allowed to present the jury with
facts sufficient to permit it to draw inferences regarding a witness’s bias and motive. Id. at ¶ 60.
C. Analysis
1. Bias or Motive for Testimony
¶ 35 At the time of trial, D.P. was in jail awaiting
the outcome of a potential probation revocation.
This revocation was pending in Jefferson County at
the time that he spoke to police regarding Perez’s
alleged offer and confession. However, his probation
was thereafter revoked, and he was sentenced to
confinement in the custody of the Department of
Corrections with respect to that case just before he
testified at trial. D.P. also had at least seven other
pending criminal cases when he testified, two of
which were pending in Denver County, the same
county in which this case was being tried.
¶ 36 Defense counsel attempted to impeach D.P.’s
testimony at trial by eliciting the fact that at the
time he spoke to police about Perez, his probation
revocation was pending. The People objected on
grounds of relevance and the trial court sustained
the objection. At a sidebar, defense counsel explained, “I’m attempting to establish that he was on
probation at the time of his pending cases, which I’ll
be going into in a minute, and at the time of which
he made his statement [to police].” The People replied that because D.P. had already been sentenced
on that charge, and it was no longer pending at the

17a
time of trial, it was not relevant to his motive for
testifying. The trial judge stated, “I don’t find this
to be probative with respect to his motivation if
there’s been a sentence on any priors at this point
in time.” Therefore, defense counsel was unable to
elicit any further testimony regarding the fact that
a probation revocation was pending when D.P.
talked to police.
¶ 37 Evidence that a witness has charges pending
against him may not be admitted to challenge that
witness’s general credibility. However, this evidence is admissible to show a witness’s bias, motive,
prejudice, or interest in the trial’s outcome. Kinney,
187 P.3d at 559. We have found no Colorado case
specifically addressing whether a pending probation
revocation becomes irrelevant when it is resolved
before a witness testifies under oath at trial.4 While
it remains possible that the pending probation revocation influenced D.P.’s willingness to testify, we
do not conclude that the trial court violated Perez’s
confrontation rights or abused its discretion when it

4 Other courts have analyzed the issue both ways. State v. Bass,
132 A.3d 1207, 1218 (N.J. 2016) (“[A] charge need not be pending
at the time of trial to support an inference of bias. In a given
case, a charge against a witness that has been resolved . . . may
be an appropriate subject for cross-examination.”). But see
Wasko v. Singletary, 966 F.2d 1377, 1381-82 (11th Cir. 1992) (assuming that defendant’s Sixth Amendment right was violated by
the trial court’s limitation on cross-examination but noting, inter
alia, that where the witness had already been sentenced, “crossexamination of [the witness] regarding his plea arrangement
with the state, if relevant to his motive, was only marginally so”).

18a
excluded specific testimony regarding the status of
D.P.’s probation.
¶ 38 Perez’s confrontation rights were not violated because the jury was not given a “significantly
different impression of the witness’s credibility” due
to this limitation. Houser, ¶ 59. The defense was
able to demonstrate that D.P. had several pending
cases at the time of trial, including pending cases in
Denver County. Therefore, if Perez wanted to argue
that D.P. was testifying against Perez out of a motive to aid law enforcement, Perez had the opportunity to make that argument. In fact, during her
closing argument, defense counsel noted D.P.’s multiple prior felonies and pending cases. She stated,
“He’s always looking for something. You heard
about the proffer he’s trying to work out [in another
case]. . . . Yes he wasn’t promised anything, but he
sure has some expectations.”
¶ 39 In addition, the defense elicited compelling
testimony that at the time he spoke to police, D.P.
was concerned that he might have criminal liability
due to his initial agreement to cooperate with Perez
and give false testimony. D.P. further testified that
he had been sentenced to the custody of the Department of Corrections on his Jefferson County case
and that, when he was interviewed about this case,
he told police that he didn’t want to go there and
wanted to stay in Denver. Finally, D.P. was extensively questioned regarding the three prior occasions on which he had offered to help law enforcement with pending cases, showing that he was willing to testify against others to help himself. The
trial court did not abuse its discretion in excluding

19a
the testimony as insufficiently relevant. People v.
Saiz, 32 P.3d 441, 448 (Colo. 2001) (“A trial court
also cannot be considered to have abused its discretion in excluding logically relevant evidence as
needlessly cumulative unless its decision, under the
circumstances, was manifestly arbitrary, unreasonable, or unfair.”).
¶ 40 Even if we were to conclude that the exclusion
of evidence was erroneous, Perez was still free to argue that D.P. could have been motivated by an interest in procuring lenient treatment from the state,
and any conviction on which D.P. was already sentenced was not per se relevant to that motive. We
cannot say the exclusion of this evidence “substantially influenced the verdict or affected the fairness
of the trial proceedings.” Hagos v. People, 2012 CO
63, ¶ 12 (quoting Tevlin v. People, 715 P.2d 338, 34142 (Colo. 1986)).
2. CRE 608(b)
¶ 41 Perez next argues that the trial court erred
when it did not permit his counsel to cross-examine
D.P. regarding the specific facts underlying his Jefferson County conviction. This conviction concerned
an attempt to influence a public servant.
¶ 42 At trial, D.P. testified with respect to this
conviction and admitted that he had sent a letter to
a judge informing the judge that his life was at risk.
Defense counsel then tried to elicit testimony that
when the charge was investigated, D.P. admitted
that he had fabricated the death threat and falsely
accused someone else of the crime. The court excluded this testimony, stating, “If this is a felony

20a
conviction, you can impeach him with respect to the
fact that he’s been convicted, the name of the
charge, what the charge is, [and] whether it was by
plea or by trial. We’re not going to go into the facts
of these cases.”
¶ 43 Perez argues that the trial court erred because under CRE 608(b) a trial court has discretion
to allow a party to cross-examine a witness about
“[s]pecific instances of conduct” if they concern “the
witness’[s] character for truthfulness or untruthfulness.” Perez asserts that he should have been allowed to inquire about the fact that D.P. had previously falsely accused another person of a crime, because it was probative of D.P.’s dishonest character.
¶ 44 As an initial matter, we note that defense
counsel never specifically identified Rule 608(b) as
grounds for admission of this evidence. Nonetheless, the record demonstrates that defense counsel
asserted two distinct bases for admission. She first
noted that the trial court had discretion to allow
counsel to cross-examine the witness regarding the
nature of the felony conviction under People v.
Renstrom, 657 P.2d 461, 463 (Colo. App. 1982). She
then separately asserted that during the investigation of this crime D.P. admitted that he initially
falsely accused another inmate of writing the letter
and that “there are many [other felonies] in which
he has falsely accused others and admitted that.”
We treat these references to the dishonesty of D.P.’s
conduct as sufficient to preserve Perez’s CRE 608(b)
argument.

21a
¶ 45 However, we perceive no error here. While we
agree that D.P.’s previous conduct is likely probative of his character for truthfulness or untruthfulness because it demonstrates a willingness make
false accusations, we do not conclude that the trial
court’s ruling was an abuse of discretion or that it
violated Perez’s confrontation rights.
¶ 46 For this limitation to have violated Perez’s
right to confront witnesses against him, the trial
court would have had to deny “virtually his only
means of effectively testing significant prosecution
evidence.” Krutsinger v. People, 219 P.3d 1054, 1062
(Colo. 2009). Furthermore, to constitute an abuse of
discretion, a trial court’s exclusion of relevant evidence must effectively deny a defendant his right to
cross-examine the witness concerning the disputed
issue. People v. Raffaelli, 647 P.2d 230, 234 (Colo.
1982); People v. Conyac, 2014 COA 8M, ¶¶ 97, 103
(noting that, because the witness had testified extensively regarding the issue on which the court
limited defense counsel’s cross-examination, the
trial court did not err).
¶ 47 As discussed above, D.P. was extensively
cross-examined about his habitual criminality, including multiple convictions and charges related to
fraud. During closing, defense counsel noted that
the evidence demonstrated his dishonesty. She
stated: “[h]e’s got 12, count them 12, prior felony
convictions for dishonesty. He’s got eight pending
cases throughout the state for dishonesty.” D.P. also
admitted that he initially considered perjuring himself on Perez’s behalf, thereby indicating a willingness to falsely defame the deceased victim in this

22a
case for profit. Any claim that D.P. was a person of
honest character did not go unchallenged. We do not
perceive that Perez was unable to effectively crossexamine D.P. regarding his dishonest character.
IV. Conclusion
¶ 48 We affirm the trial court’s judgment.
JUDGE HARRIS and JUDGE TOW concur.

23a
APPENDIX C
DISTRICT COURT, CITY AND
COUNTY OF DENVER, COLORADO
520 West Colfax
Denver, CO 80204
THE PEOPLE OF THE STATE
OF COLORADO,

▲COURT USE
ONLY ▲

Plaintiff
v.

Case Number:
14CR4593

ROBERT PEREZ,
Defendant

Ctrm: 5D
ORDER
THIS MATTER is before the Court on a subpoena duces tecum issued on behalf of Defendant
that seeks medical and psychological treatment records for the victim, Dennielle Perez. A hearing was
held on April 7, 2016, at which the prosecution
orally moved to quash the subpoena. The Court
heard arguments from both the prosecution and the
defense, and thereafter ordered both parties to submit authorities regarding privilege issues and who
is authorized on behalf of the victim to invoke or
waive the privilege. Based upon the Court’s independent review of the authorities, however, the

24a
Court finds that further supplementation is not necessary. Therefore, and upon consideration of the
motion, and having reviewed the Court’s file and being advised in the premises, the Court finds and orders as follows.
Defendant is charged with murder in the first degree in connection with the shooting death of Dennielle Perez on August 20, 2014. Ms. Perez was married to Defendant at the time of her death. Defendant denies involvement in the shooting and asserts
that Ms. Perez was experiencing emotional issues,
including depression, in the days and weeks prior to
the shooting. Defendant asserts that her death was
the result of suicide and not murder, and seeks her
medical and psychological treatment records in support of his theory of defense. Pursuant to the subpoena issued by Defendant, a representative from
Kaiser appeared on April 7, 2016 with records identified in the subpoena. Diane Liko, who was appointed as Ms. Perez’ representative in the probate
court, appeared at the hearing and objected to disclosure of the documents and stated on the record
that she refused to waive any statutory privilege
with respect to the production of the medical and
psychological records. The Court received the documents under seal, pending resolution of the prosecution’s motion to quash.
There is no dispute that the records produced
pursuant to the subpoena and retained under seal
are subject to the statutory physician-patient and
psychologist-client privilege. C.R.S 13-90-107(1)(d)
& (1)(g). The privileges prohibit not only testimonial
disclosures in court, but also pretrial discovery of

25a
information within the scope of the privileges. Clark
v. District Court, 668 P.2d 3 (Colo. 1983). In Clark,
the supreme court rejected the assertion that the
privileges are merely qualified in nature such as to
permit a court to resolve a claim of privilege by balancing a party’s need to obtain information essential to a claim or defense with the privilege holder’s
interest in preserving the confidentiality of the information requested. “There being no statutory language conditioning the applicability of the physician-patient and psychologist-client privileges to a
judicial balancing of interests, we decline to engraft
one onto the statute. Once these privileges attach,
therefore, the only basis for authorizing a disclosure
of the confidential information is an express or implied waiver.” Id., 668 P.2d at 9; see also People v.
District Court, 719 P.2d 722, 727 n. 3 (Colo. 1986)
(specifically rejecting application of balancing test);
People v. Overton, 759 P.2d 772 (Colo.App. 1988)
(trial court is neither authorized nor required to balance defendant’s need for information with patient’s
interest in preserving confidentiality of records).
Defendant asserted at the hearing that, as the
surviving spouse of Ms. Perez, he has standing to
waive the privileges applicable to the subpoenaed
records. However, the Colorado Supreme Court has
held that the physician-patient privilege (and by implication the psychologist-client privilege) “is personal to the patient or her estate.” People v. Palomo,
31 P.3d 879 (Colo. 200l ) [emphasis supplied; citing
Knight v. State, 207 Ga.App. 846, 429 S.E. 2d 326
(1993) (holding defendant had no standing to assert

26a
his wife’s privacy right pertaining to medical records introduced into evidence at trial); People v.
Wood, 447 Mich. 80, 523 N.W. 2d 477 (1994) (stating
that a defendant has no standing to invoke a third
party’s privilege in either a criminal or civil action);
State v. Evans, 802 S.W. 2d 507 (Mo. 1991) (stating
that “the physician-patient privilege is personal to
the patient, and generally no person . . . other than
the patient may so object”)]; see also Stauffer v. Karabin, 30 Colo. App. 357, 492 P.2d 862 (1971).
Moreover, federal law requires persons or entities to treat personal representatives of deceased individuals as the individual for purposes of releasing
medical records to a person other than the patient.
See 45 C.F.R. § 164.502(g)(1). Accordingly, even if
an order appointing personal representative does
not explicitly address the privilege issue, the representative’s authority to assert (or waive) the privilege becomes operative as a matter of law.
The Court accordingly concludes that Defendant
lacks standing to waive the statutory privileges attendant to the records produced pursuant to his
subpoena. Furthermore, in light of the estate’s express objection to the disclosure of the documents,
the Court finds no express or implied waiver that
would permit disclosure of the records. The motion
to quash is therefore granted. The Court will return
the sealed documents to the prosecution, with directions to return the records, under seal, to the appropriate custodian.

27a
APPENDIX D
DISTRICT COURT
DENVER COUNTY, COLORADO
Lindsey-Flanigan Courthouse
520 West Colfax Ave.
Denver, Colorado 80204
Plaintiff:

▲COURT USE
ONLY ▲

THE PEOPLE OF THE STATE
OF COLORADO

Case Number:
14 CR 4593

Defendant:

Courtroom 5-D

ROBERT ANGEL PEREZ
The matter came on for SDT return on Thursday,
April 7, 2016, before the Honorable Martin F.
Egelhoff, Judge of the District Court, and the following proceedings were had. (These proceedings
were recorded on FTR.)
APPEARANCES
For the Plaintiff:
Christine Washburn, District Attorney’s Office
Steve Abraham, District Attorney’s Office
For the Defendant:
Holly Lucas, Colorado State Public Defender
Melissa Roth, Colorado State Public Defender
The Defendant appeared in custody.

28a
[2]
DENVER, COLORADO; THURSDAY, 1
APRIL 7, 2016
(The matter commenced at 11:34 a.m.)
THE COURT: Okay. Calling 14 CR 4593, People
versus Robert Perez.
MS. WASHBURN: Christine Washburn and
Steve Abraham for the People.
MS. LUCAS: Holly Lucas and Melissa Roth appearing with Mr. Perez who appears in custody.
THE COURT: Okay. And today’s a subpoena return date. And is it my imagination or have these
things multiplied?
MS. WASHBURN: They -- they had issued subpoenas for our last court date and they re-issued. So
you probably have two copies of each.
MS. LUCAS: Of the -- Probably of the exact same
thing. Yes, that’s accurate.
THE COURT: Okay. So what do I need to do, if
anything?
MS. WASHBURN: Your Honor, I believe a representative from Kaiser is or was present with records.
The People do have a -- a motion to quash. I’m
not sure if the Court would like to accept their records for purpose of the record and -- and subsequent
to our argument whether they should be disclosed
so that she can be excused or how the Court wants
to deal with that. She has been here all morning.

29a
THE COURT: So we have records from Kaiser
Permanente? Is that correct? And these are victim’s
records?
MS. LUCAS: Yes.
[3] THE COURT: Okay. What else do we have?
Do we have like phone records that would -MS. LUCAS: I don’t believe anyone’s come today
from the phone company, Your Honor.
THE COURT: Okay. But you subpoenaed phone
records.
MS. LUCAS: Correct.
THE COURT: And what else did you subpoena?
MS. LUCAS: That’s it.
THE COURT: Okay. Let’s talk about the records
that are here first.
I don’t know a whole lot, but it strikes me that
there might be a privilege involved, so -MS. WASHBURN: I agree with that, yeah.
MS. LUCAS: Your Honor, we don’t disagree that
there was a privilege involved. I think the issue -And I’ll tell you why we actually put this before the
Court.
I think under most circumstances we would have
been able to obtain them via a release from Mr. Perez since they were a married couple, and under 251-802, which is discussed -- is the section that talks
about when hospitals have to turn over records and
medical providers, et cetera.

30a
That section indicates that they could be available to a number of different people -- obviously the
patient themself (sic). But in this circumstance, it’d
be available to the patient’s personal representative
which could be a spouse, which could be a number
of different people.
We brought this before the Court because I think
the Court has to [4] make some determinations
about who actually at this moment holds that privilege.
There’s a probate matter that’s going on as well.
In that probate matter, there is a personal representative who’s been appointed, that would be Ms.
Diane Liedle (phonetic spelling).
So I think the Court needs to decide who actually
holds that privilege. It is our position that Mr. Perez
still holds that position. And the reason is -- that
that is our position, is because the probate court has
not given Ms. Liedle powers over the medical records. She’s been given powers over carrying out the
funeral arrangements which were done, disposing of
property that is involved with the estate, and that’s
an ongoing power that she has because the probate
case has not been closed. There’s been no final -- final determination made about how the estate is to
be settled because of the criminal case here.
The probate court has not yet made a determination whether Mr. Perez lost all of his rights under
probate law under the Colorado slayer statute. So
because that determination hasn’t been made, all of
his rights remain intact.

31a
It’s my position because the probate court has
not given Ms. Liedle specific powers that allow her
to access these medical records or other records, like
bank records, et cetera, that those rights still remain with Mr. Perez and Mr. Perez should be entitled to receive these records and frankly should
have been able to do that through a release of information.
We elected not to do that because I think there’s
an issue here that is better resolved by the Court
than -- than by myself. So that is why [5] we brought
that to this Court.
In terms of our Spykstra showing, these records
that we sought, we did narrowly terror (sic) (indistinguishable) -THE COURT: Tailor.
MS. LUCAS: -- tailor -- Thank you. -- our request. We did not request all of her medical records.
We requested records that had to do with pregnancies and miscarriages and then mental health records.
The reason we are requesting those particular
records -- Mr. Perez indicated in his interviews that
there were issues with Ms. Perez’s mental health
state and that she was -- in fact, due to depression
surrounding miscarriages and other issues, was in
fact seeking medical attention in form of psychotherapy from Kaiser Permanente.
I think the Court knows enough about this case
to know that the defense’s theory is that Ms. Perez
committed suicide, and these records would tend to

32a
support that conclusion if she was seeking mental
health treatment and discussed her feelings and
what was going on with her in sessions with the provider. That would tend to support that she was depressed, and because she was depressed, she may
have taken her own life.
The medical records relating to pregnancies and
gynecological exams, those tend to support why she
was depressed.
I think there will be other witnesses presented
who will talk about her wanting to be a mother and
her inability to do that and how that took an emotional toll on her. This medical evidence would be
corroborating in that sense.
So I think we can make our showing under Spykstra.
[6] The only other thing I want to add, Your
Honor, is that even if the Court were to find that the
power to release -- to give a waiver lies with Ms.
Liedle, I think the Court still needs to engage in a
balancing test here and balance the rights of the two
parties here: the right to privacy on the part of Danielle (phonetic spelling) Perez, and the right to present a defense on the part of Mr. Robert Perez. It is
our position that that balancing test should be in
favor of Mr. Perez.
The privacy that we’re talking about here again
is fairly limited. We did not attempt to subpoena
any other sorts of records.
I think the Court’s also aware through motions
hearings that there’s going to be a number of very

33a
sensitive and embarrassing issues that are going to
come out -- the information about the parties’ sexual
behaviors. The -- the People have indicated that
they are seeking to admit that evidence, and so in - in light of that, the privacy interests here I -- I
think is somewhat diminished since even if that’s
what she’s talking about in these sessions through
other means, their life as swingers is going to be
coming in.
Mr. Perez needs this information to present an
adequate defense and to be able to support his conclusion that this is a suicide.
THE COURT: Okay. Ms. Washburn.
MS. WASHBURN: Your Honor, it’s our position
that the Court should quash this subpoena.
With regard to the -- Well, first of all, the People
would cite Twenty-four point -- 4.1-303, 14.5(a),
which -THE COURT: Maybe you should slow down a little bit.
[7] MS. WASHBURN: Sorry.
THE COURT: Twenty-five.
MS. WASHBURN: 24-4.1-303, 14.5 -- It’s actually (b) -- subsection (b) under the victim’s rights
amendment.
And that particular section talks about hearings
involving a subpoena for records of a victim. The
Court shall ascertain whether the victim received a
notice from the district attorney’s office of the subpoena. After considering all evidence relevant to the

34a
subpoena, the Court should deny a request for victim’s records that are privileged, unless the Court
makes a finding supported by facts -- specific facts - that the victim has either expressly or impliedly
waived the victim’s statutory privilege.
I can represent to the Court if you -- And if you
want to hear from Diane Liedle particularly, she is
the personal representative that was appointed in
probate court for Danielle Perez. That she does object to these records being released and does not
waive any privilege that Ms. Perez has with respect
to that issue.
With respect to the Spykstra analysis, Your
Honor, I guess what I did not hear from the defense
is a reasonable likelihood that the -- that the subpoenaed materials exist by setting forth a specific
factual basis.
While I would agree that Mr. -- Well, what I can
tell the Court is my recollection of what Mr. Perez
said was that his wife was depressed. But what I
don’t recall him ever saying is that he was aware of
her undergoing any treatment for her depression.
I remember him talking about the fact that she
was unable to -- or they were unable to have children. I don’t remember him talking about [8] having
specific knowledge of where going to a doctor or
whether or not that was just something they had
continued to try and were unsuccessful at doing.
All I remember Mr. Perez saying -- and I know
Ms. Lucas can correct me if I’m wrong -- is that she
was depressed, that he had a -- that he was bipolar

35a
and on medication, and that Ms. Perez took some of
his medication and not that there was any indication that she was seeing a therapist, that she was
on her own medication or anything of that nature.
So I don’t know that they’ve established any reasonable likelihood that these documents exist. I also
don’t believe that they have established that they
are evidentiary and relevant.
I understand the argument that perhaps the
pregnancies and the miscarriages may have been a
reason that Ms. Perez was depressed; however, I
think the evidence that the Court has heard both at
the preliminary hearing and during various motions
hearings is that what was happening around this
period of time are the problems that she and the defendant were having with their relationship versus
whether she was depressed because of pregnancy or
mis- -- or not being able to have children or anything
of that nature, and so I -- I don’t believe they’re particularly relevant and I think they place Ms. Perez’s
mental health issues in front of the jury for reasons
that aren’t particularly probative in this particular
case.
So it does appear to me that this is somewhat of
a fishing expedition at least as it relates to the mental health records.
Third, I would argue that Spykstra requires that
the Court find either an express or an implied
waiver and there have been several cases where the
courts have considered this issue, and I don’t believe
it’s [9] sufficient that this Court find some sort of
express or implied waiver, because the defendant,

36a
in his own self-serving statement to the police,
brought up the issue of Ms. Perez’s mental health.
There are several cases which limit even cases
where there is a mandatory recording requirement
on behalf of say, a psychotherapist. Under Dill versus People, found at 927 P.2d 1315, a Colorado Supreme Court case from 1996, they found that to the
extent there was a -- a requirement for that therapist to report sex abuse -- that was a sex-assault-ona-child case -- that doesn’t -- that didn’t necessarily
abrogate that victim’s privilege with respect to later
therapy in which the victim discussed the sexual
abuse that was the -- the subject of the later case.
Also Clark versus District Court was a -- is found
at 668 P.2d 3, a Colorado Supreme Court case from
1983. I believe that case again was one where just
because the plaintiff filed something against the defendant and the defendant filed an answer, what
was not interpreted as the defendant somehow putting a -- putting their own mental condition at issue
in this case.
So I don’t believe there’s any record or any facts
or any case that would support any finding of an express or an implied waiver in this case.
I also understand that there is language in Spykstra about the Court conducting a balancing test;
however, I believe the language in Spykstra talks
about doing that balancing test depending on the
nature of the privilege. So when we are talking
about things like school records or social service records or things of that nature, it may be appropriate
for the Court [10] to do a balancing test.

37a
But as far as I can tell, the supreme court’s decisions in Dill versus People, in People (sic) versus
District Court, when we’re talking about records
that are privileged, and specifically mental health
records, those -- the Court must find some sort of
express or implied waiver before you can even look
at the records.
And so it’s our position that the Court should
quash the subpoena as it relates to the victim’s medical and mental health records and find that there
is no valid waiver.
Obviously I -- I haven’t had an opportunity to
look at 25-1-802, but a court has appointed Ms.
Liedle as the personal representative for Ms. Perez.
I don’t know, quite frankly, if probate courts specifically make determinations about whether that
extends to medical privileges. Maybe they don’t, because that’s not necessarily something that would
come up since the person is deceased.
But I think it makes logical sense and -- as just
a matter of fairness. It doesn’t seem fair that the
defendant who is accused of murdering his wife,
should have the ability to waive her privileges with
respect to very private confidential records for his
own benefit, and if a court has designated somebody
different, somebody neutral, to hold that right, that
is the person who this Court should accept either a
waiver from or a -- or and accept a refusal to give a
waiver.
THE COURT: Okay.

38a
MS. LUCAS: And, Your Honor, if I can respond
very briefly.
[11] THE COURT: Um-hum. Sure.
MS. LUCAS: First, I want to give you the citation
that indicates what the powers of personal representative are in probate. That’s 15-12-702. And
there’s -- It does not delineate that medical records
are part of their powers unless there’s a written order by the Court. And I don’t believe Ms. Liedle, as
Ms. Washburn has deemed her, is a neutral representative or a neutral party here.
And to say that it’s not fair because Mr. Perez is
accused, that he shouldn’t be given these records I
think violates his presumption of innocence is essentially what she’s saying to you is because he -- he
did this crime, he shouldn’t have the right.
I think in fact the opposite is true. It’s not fair to
-- because he is accused of this crime -- to prohibit
him from accessing what he’d otherwise be able to
access.
And I will correct Ms. Washburn. Mr. Perez in
his interview with Detective Dennison (phonetic
spelling) which was on the twenty -- no, on the 1st
of September, did tell Detective Dennison at that
time that she had been seeking therapy. Those are
his exact words. And I can tell you that Mr. Perez
would represent that -- the Court -- to the Court today if he was allowed to speak to the Court. And I’m
representing that on his behalf that she was seeking
therapy and had been for some time.

39a
THE COURT: Okay. All right. Here’s -- here’s my
thinking at this juncture.
It strikes me first of all that -- that -- that the
real issue is whether -- The -- the -- the real issue is
who holds the privilege and has [12] there been a
waiver of the privilege.
I can look at this again, but my understanding - And we’re talking about medical records and mental health records which in my understanding are
absolutely privileged absent some either express or
implied waiver, and so I’m -- I’m -- and I can be educated to the contrary if it’s not accurate. But it’s
my belief that -- that -- that the Court doesn’t do the
balancing, doesn’t do the -- the whole back-andforth analysis. The Court doesn’t even look at the
records unless -- unless there’s an express or implied waiver. That’s my basic understanding. So for
me the -- the real issue is who holds the privilege,
and has the privilege been waived.
So my suggest -- And I need help with that issue
obviously. So a couple of things.
First of all, there’s someone here with records
right now; is that correct?
MS. LUCAS: Yes.
THE COURT: I -- I would suggest we do the following.
Rather than either hold that person hostage forever or have that person come back, that she -- that
she submit the records to the Court, that we just

40a
hold them. We don’t look at them, we don’t do anything other than hang onto them. And then I can -If I make a finding that there’s been a waiver, then
they can be disclosed. If there’s not a waiver, they
can be returned.
I would suggest that -- that -- that the documents
be surrendered at this point in time to the Court
just so that we have them here and she doesn’t have
to go back and forth and back and forth. That would
be my first [13] suggestion.
Number two is -- is -- Ms. Liedle is present; is
that correct?
MS. WASHBURN: That’s correct.
THE COURT: My suggestion would be just to -to find out or -- or have her -- have her state on the
record her position -- thank you -- as the personal
representative whether in that capacity there is either -- if there’s a waiver or not so we have that information at least on the record.
And then a third thing I would -- I would like
would be some help in terms of what the law is in -in the area of determining in these circumstances,
when someone’s accused of a -- when one spouse is
accused of killing another spouse, what that does if
anything to any privilege that exists with respect to
mental or medical records. I would be surprised if
this is the only time in -- in the history of the country this has come up before, so I would -- I would
like some help with respect to that or if there’s other
authorities the Court should look at, I’d like some
help with respect to that issue.

41a
Strikes me once I resolve that issue, that will say
whether or not they’re -- they may be disclosed or
not.
Those are my thoughts. Anyone care to respond
to that?
Ms. Lucas.
MS. LUCAS: Before we do that, Your Honor, Kaiser split up the records. What I’ve given you is medical and now I’ll approach with the mental health.
THE COURT: Okay. Thank you.
So in terms of my -- my proposed procedure, Ms.
Lucas, your [14] thoughts.
MS. LUCAS: Your Honor, I’m happy to do some
further research in -- into the question that the
Court has asked.
THE COURT: Ms. -- Ms. Washburn.
MS. WASHBURN: I agree with the -- with the
Court’s proposal.
THE COURT: Can we have the -- the -- the representative approach the podium and -- and make a
statement with respect to her position and then I
can decide whether it’s a waiver or not and whether
-- if it’s -- whether she’s entitled to assert it or not
at some future point.
THE COURT: Good morning, ma’am.
MS. LIEDLE: Good morning.
THE COURT: Your name, please.
MS. LIEDLE: Diane Liedle.

42a
THE COURT: Okay. And so you’ve been appointed as the personal representative in the probate case; is that correct?
MS. LIEDLE: Yes, sir.
THE COURT: All right. And have you been kind
of following on what -- what we’re talking about
back and forth here at a distance?
MS. LIEDLE: Kind of, yes.
THE COURT: All right. I don’t know at this point
in time whether you exercise -- you hold the privilege with respect to this or whether Mr. Perez does.
So that’s the issue I have to decide.
But putting that aside for now, in your capacity
as a personal representative, what is your position
with respect to whether you’d waive the privilege on
behalf of the victim in this case and disclose these
records.
[15] MS. LIEDLE: I do have papers stating that
I am the representative. I did get all that from the
courts and I’ve taken care of everything down to -everything.
THE COURT: Right. Right. And -MS. LIEDLE: As -- I’m sorry.
THE COURT: So -- so I don’t know if you’re following my question.
MS. LIEDLE: Okay.
THE COURT: I just want to know whether or not
you would -- are waving the privilege -- in other
words, whether you would consent to having these

43a
documents disclosed to Mr. Perez or whether you
would not consent to that -MS. LIEDLE: I -THE COURT: -- as on behalf of -MS. LIEDLE: I do not waive these -- No, I -- I
don’t want him to have rights to any of its -THE COURT: Okay. So I think that’s a fairly
clear statement on the record that there would -- at
least on the behalf of the personal representative,
there’s no waiver of the privilege.
She -- she has documentation as to the -- the appointment; is that correct?
MS. WASHBURN: Yes.
MS. LIEDLE: Yes.
THE COURT: That -MS. LIEDLE: Yes, sir.
[16] THE COURT: -- certainly might be helpful
for the Court to -- to see what the probate court is MS. LUCAS: And I can provide that, Your
Honor. I have a full copy of the probate file.
THE COURT: That would certainly be helpful to
understand that -- whatever parameters that the
probate court has imposed. We’re -MS. LUCAS: This -THE COURT: We don’t do probate here in district court.

44a
MS. LIEDLE: Right.
THE COURT: We have a special court that does
that, so I don’t know very much about it so I’ll need
to -- to -- to learn this.
So -MS. LIEDLE: Does -THE COURT: -- like I say, I’ll -- I’ll hold these
records. They won’t be opened; they won’t be looked
at -- they’ll just be held, and then I’ll issue a written
order.
I would like some help with respect to these -- to
the issues of like I say, who holds the privilege in
this case and what effect, if any, does the accusation
that Mr. Perez committed a homicide effect that -who holds the privilege, okay?
We’ve got a trial date coming up pretty darn
quick, May 2nd, and so I’ll need this -- this -- this
supplementation pretty darn quick as well.
How quickly can I expect that, Ms. Lucas?
MS. LUCAS: Probably by next week, Your
Honor.
THE COURT: Okay. Ms. Washburn.
[17] MS. WASHBURN: Agreed.
THE COURT: So can I have it by next Friday?
MS. LUCAS: Sure.
THE COURT: All right. So let’s -- let’s have this
by next Friday at noon here.

45a
Whatever authorities you can give me with respect to this issue -- I’ll, as promptly as possible, issue a written order and either find there’s a waiver
or not, okay?
MS. WASHBURN: Okay.
MS. LUCAS: And, Your Honor, do you want a -a copy of the entire probate file, and I -THE COURT: You know what I -- I need to know
I think is just if there’s any -- any documentation -I presume there is -- with respect to what -MS. LUCAS: There’s an order of appointment of
personal representative that is -- is contained in the
-- the orders. There’s only one order that has anything to do directly with the appointment of the personal representative. The other things are -THE COURT: Okay.
MS. LUCAS: -- finance companies back-andforth. Things like that.
THE COURT: I don’t need any of that. I just -Whatever -- If there’s any documentation or any orders with respect to the -- the -- either the limits or
the -- or the -- the powers or whatever else that the
personal -- personal representative has in the probate matter. I think that would be [18] helpful to
know, okay?
MS. LUCAS: I will get that. I will include that
with the supplemental cases then.
THE COURT: Fair enough. Okay.
MS. LUCAS: Thank you.

46a
THE COURT: That’s issue number one.
Issue number two is phone records.
8 MS. WASHBURN: And I did -- I didn’t have
any objection or motion to quash those.
I know that we did provide those records, but I
think Ms. Lucas was trying to make sure that she
got them all, but with -THE COURT: And she served a subpoena on
somebody and somebody’s -MS. WASHBURN: Right.
THE COURT: -- not shown up.
MS. LUCAS: I did, Your Honor.
I need some time to think about what to do. I’ve
been in this position with phone companies before,
and sometimes even a contempt of court doesn’t
seem to have any effect on them, unfortunately.
THE COURT: What I’ll do, Ms. Lucas, is this. I’ll
find that there’s -- there’s been a subpoena issued.
(Discussion between Judge Egelhoff and division
clerk.)
THE COURT: Issued -- uh -- oh, on T-Mobile
U.S.A. And there’s a return. So it was served on -Was this their -- Was there an agent?
[19] MS. LUCAS: Yes, Your Honor. And the reason there -- you probably see three subpoenas for TMobile -- the one we issued for two -- a week ago and
then there were two for today. T-Mobile acknowledged receipt of that by contacting our investigator

47a
and wouldn’t accept our initial subpoena because it
was under my name but signed by Ms. Roth, so they
required us to redo that so that the signature and
the name matched. We did that. They’re in receipt
it and have acknowledged.
THE COURT: Okay. So I can make a finding at
this point in time, Ms. Lucas, that the subpoena’s
been served, that it was returnable this morning.
There’s been no response to the subpoena. So in the
event that you choose to issue a show cause, those
findings have been made and I can execute the order, okay?
MS. LUCAS: Thank you.
THE COURT: You can decide how you want to
proceed, okay?
MS. LUCAS: Thank you.
THE COURT: Anything else?
MS. WASHBURN: I don’t believe so.
MS. LUCAS: I think that’s -- that’s it.
THE COURT: Thank you.
(Whereupon the proceedings concluded at 12:00
noon.)
*

*

*

*

*

[20] C E R T I F I C A T E
I certify that the foregoing is a correct transcript
from the electronic sound recording of the proceedings in the above-entitled matter.

48a
I further certify that the aforementioned transcript is a complete and accurate transcription of
the digitally recorded proceedings recorded in this
case on the above date, based upon the audio and
my ability to understand it.
Dated September 15, 2016.
_______________________________
K.S. Trostel
1888 WCR 19
Fort Lupton, CO 80621
303.659.3681

49a
APPENDIX E
RELEVANT STATUTORY PROVISION
Colorado Revised Statute § 13-90-107. Who
may not testify without consent - definitions.
(1) There are particular relations in which it is the
policy of the law to encourage confidence and to preserve it inviolate; therefore, a person shall not be
examined as a witness in the following cases:
(a)(I) Except as otherwise provided in section 1413-310(4), C.R.S., a husband shall not be examined
for or against his wife without her consent nor a
wife for or against her husband without his consent;
nor during the marriage or afterward shall either be
examined without the consent of the other as to any
communications made by one to the other during
the marriage; but this exception does not apply to a
civil action or proceeding by one against the other,
a criminal action or proceeding for a crime committed by one against the other, or a criminal action or
proceeding against one or both spouses when the alleged offense occurred prior to the date of the parties’ marriage. However, this exception shall not attach if the otherwise privileged information is communicated after the marriage.
(II) The privilege described in this paragraph
(a) does not apply to class 1, 2, or 3 felonies as described in section 18-1.3-401(1) (a)(IV) and (1)(a)(V),
C.R.S., or to level 1 or 2 drug felonies as described
in section 18-1.3-401.5(2)(a), C.R.S. In this instance,
during the marriage or afterward, a husband shall
not be examined for or against his wife as to any

50a
communications intended to be made in confidence
and made by one to the other during the marriage
without his consent, and a wife shall not be examined for or against her husband as to any communications intended to be made in confidence and made
by one to the other without her consent.
(III) Communications between a husband and
wife are not privileged pursuant to this paragraph
(a) if such communications are made for the purpose
of aiding the commission of a future crime or of a
present continuing crime.
(IV) The burden of proving the existence of a
marriage for the purposes of this paragraph (a)
shall be on the party asserting the claim.
(V) Notice of the assertion of the marital privilege shall be given as soon as practicable but not
less than ten days prior to assertion at any hearing.
(a.5)(I) Except as otherwise provided in section
14-13-310(5), C.R.S., a partner in a civil union shall
not be examined for or against the other partner in
the civil union without the other partner’s consent,
nor during the civil union or afterward shall either
be examined without the consent of the other as to
any communications made by one to the other during the civil union; except that this exception does
not apply to a civil action or proceeding by one
against the other, a criminal action or proceeding
for a crime committed by one against the other, or a
criminal action or proceeding against one or both
partners when the alleged offense occurred prior to
the date of the parties’ certification of the civil union. However, this exception shall not attach if the

51a
otherwise privileged information is communicated
after the certification of the civil union.
(II) The privilege described in this paragraph
(a.5) does not apply to class 1, 2, or 3 felonies as described in section 18-1.3-401(1)(a)(IV) and (1)(a)(V),
C.R.S., or to level 1 or 2 drug felonies as described
in section 18-1.3-401.5(2)(a), C.R.S. In this instance,
during the civil union or afterward, a partner in a
civil union shall not be examined for or against the
other partner in the civil union as to any communications intended to be made in confidence and made
by one to the other during the civil union without
the other partner’s consent.
(III) Communications between partners in a
civil union are not privileged pursuant to this paragraph (a.5) if such communications are made for the
purpose of aiding the commission of a future crime
or of a present continuing crime.
(IV) The burden of proving the existence of a
civil union for the purposes of this paragraph (a.5)
shall be on the party asserting the claim.
(V) Notice of the assertion of the privilege described in this paragraph (a.5) shall be given as soon
as practicable but not less than ten days prior to assertion at any hearing.
(VI) For the purposes of this paragraph (a.5),
“partner in a civil union” means a person who has
entered into a civil union established in accordance
with the requirements of article 15 of title 14, C.R.S.
(b) An attorney shall not be examined without
the consent of his client as to any communication

52a
made by the client to him or his advice given
thereon in the course of professional employment;
nor shall an attorney’s secretary, paralegal, legal
assistant, stenographer, or clerk be examined without the consent of his employer concerning any fact,
the knowledge of which he has acquired in such capacity.
(c) A clergy member, minister, priest, or rabbi
shall not be examined without both his or her consent and also the consent of the person making the
confidential communication as to any confidential
communication made to him or her in his or her professional capacity in the course of discipline expected by the religious body to which he or she belongs.
(d) A physician, surgeon, or registered professional nurse duly authorized to practice his or her
profession pursuant to the laws of this state or any
other state shall not be examined without the consent of his or her patient as to any information acquired in attending the patient that was necessary
to enable him or her to prescribe or act for the patient, but this paragraph (d) shall not apply to:
(I) A physician, surgeon, or registered professional nurse who is sued by or on behalf of a patient
or by or on behalf of the heirs, executors, or administrators of a patient on any cause of action arising
out of or connected with the physician’s or nurse’s
care or treatment of such patient;
(II) A physician, surgeon, or registered professional nurse who was in consultation with a phy-

53a
sician, surgeon, or registered professional nurse being sued as provided in subparagraph (I) of this paragraph (d) on the case out of which said suit arises;
(III) A review of a physician’s or registered
professional nurse’s services by any of the following:
(A) The governing board of a hospital licensed pursuant to part 1 of article 3 of title 25,
C.R.S., where said physician or registered professional nurse practices or the medical staff of such
hospital if the medical staff operates pursuant to
written bylaws approved by the governing board of
such hospital;
(B) An organization authorized by federal
or state law or contract to review physicians’ or registered professional nurses’ services or an organization which reviews the cost or quality of physicians’
or registered professional nurses’ services under a
contract with the sponsor of a nongovernment group
health care program;
(C) The Colorado medical board, the state
board of nursing, or a person or group authorized by
such board to make an investigation in its behalf;
(D) A peer review committee of a society or
association of physicians or registered professional
nurses whose membership includes not less than
one-third of the medical doctors or doctors of osteopathy or registered professional nurses licensed to
practice in this state and only if the physician or
registered professional nurse whose services are the
subject of review is a member of such society or as-

54a
sociation and said physician or registered professional nurse has signed a release authorizing such
review;
(E) A committee, board, agency, government official, or court to which appeal may be taken
from any of the organizations or groups listed in this
subparagraph (III);
(IV) A physician or any health care provider
who was in consultation with the physician who
may have acquired any information or records relating to the services performed by the physician specified in subparagraph (III) of this paragraph (d);
(V) A registered professional nurse who is
subject to any claim or the nurse’s employer subject
to any claim therein based on a nurse’s actions,
which claims are required to be defended and indemnified by any insurance company or trust obligated by contract;
(VI) A physician, surgeon, or registered professional nurse who is being examined as a witness
as a result of his consultation for medical care or
genetic counseling or screening pursuant to section
13-64-502 in connection with a civil action to which
section 13-64-502 applies.
(e) A public officer shall not be examined as to
communications made to him in official confidence,
when the public interests, in the judgment of the
court, would suffer by the disclosure.
(f)(I) A certified public accountant shall not be
examined without the consent of his or her client as
to any communication made by the client to him or

55a
her in person or through the media of books of account and financial records or his or her advice, reports, or working papers given or made thereon in
the course of professional employment; nor shall a
secretary, stenographer, clerk, or assistant of a certified public accountant be examined without the
consent of the client concerned concerning any fact,
the knowledge of which he or she has acquired in
such capacity.
(II) No certified public accountant in the employ of the state auditor’s office shall be examined
as to any communication made in the course of professional service to the legislative audit committee
either in person or through the media of books of
account and financial records or advice, reports, or
working papers given or made thereon; nor shall a
secretary, clerk, or assistant of a certified public accountant who is in the employ of the state auditor’s
office be examined concerning any fact, the
knowledge of which such secretary, clerk, or assistant acquired in such capacity, unless such information has been made open to public inspection by
a majority vote of the members of the legislative audit committee.
(III)(A) Subpoena powers for public entity audit and reviews. Subparagraph (I) of this
paragraph (f) shall not apply to the Colorado state
board of accountancy, nor to a person or group authorized by the board to make an investigation on
the board’s behalf, concerning an accountant’s reports, working papers, or advice to a public entity
that relate to audit or review accounting activities

56a
of the certified public accountant or certified public
accounting firm being investigated.
(B) For the purposes of this subparagraph
(III), a “public entity” shall include a governmental
agency or entity; quasigovernmental entity; nonprofit entity; or public company that is considered
an “issuer”, as defined in section 2 of the federal
“Sarbanes-Oxley Act of 2002”, 15 U.S.C. sec. 7201.
(IV)(A) Subpoena powers for private entity audit and reviews. Subparagraph (I) of this
paragraph (f) shall not apply to the Colorado state
board of accountancy, nor to a person or group authorized by the board to make an investigation on
the board’s behalf, concerning an accountant’s reports or working papers of a private entity that is
not publicly traded and relate to audit or review attest activities of the certified public accountant or
certified public accounting firm being investigated.
This subparagraph (IV) shall not be construed to authorize the Colorado state board of accountancy or
its agent to subpoena or examine income tax returns.
(B) At the request of either the client of the
certified public accountant or certified public accounting firm or the certified public accountant or
certified public accounting firm subject to the subpoena pursuant to this subsection (1)(f)(IV), a second certified public accounting firm or certified public accountant with no interest in the matter may
review the report or working papers for compliance
with the provisions of article 100 of title 12. The sec-

57a
ond certified public accounting firm or certified public accountant conducting the review must be approved by the board prior to beginning its review.
The approval of the second certified public accounting firm or certified public accountant shall be in
good faith. The written report issued by a second
certified public accounting firm or certified public
accountant shall be in lieu of a review by the board.
Such report shall be limited to matters directly related to the work performed by the certified public
accountant or certified public accounting firm being
investigated and should exclude specific references
to client financial information. The party requesting
that a second certified public accounting firm or certified public accountant review the reports and
working papers shall pay any additional expenses
related to retaining the second certified public accounting firm or certified public accountant by the
party who made the request. The written report of
the second certified public accounting firm or certified public accountant shall be submitted to the
board. The board may use the findings of the second
certified public accounting firm or certified public
accountant as grounds for discipline pursuant to article 100 of title 12.
(V) Disclosure of information under subsection (1)(f)(III) or (1)(f)(IV) of this section shall not
waive or otherwise limit the confidentiality and
privilege of such information nor relieve any certified public accountant, any certified public accounting firm, the Colorado state board of accountancy,
or a person or group authorized by such board of the
obligation of confidentiality. Disclosure that is not

58a
in good faith of such information shall subject the
board, a member thereof, or its agent to civil liability pursuant to section 12-100-104(4).
(VI) Any certified public accountant or certified public accounting firm that receives a subpoena
for reports or accountant’s working papers related
to the audit or review attest activities of the accountant or accounting firm pursuant to subparagraph (III) or (IV) of this paragraph (f) shall notify
his or her client of the subpoena within three business days after the date of service of the subpoena.
(VII) Subparagraph (III) or (IV) of this paragraph (f) shall not operate as a waiver, on behalf of
any third party or the certified public accountant or
certified public accounting firm, of due process remedies available under the “State Administrative
Procedure Act”, article 4 of title 24, C.R.S., the open
records laws, article 72 of title 24, C.R.S., or any
other provision of law.
(VIII) Prior to the disclosure of information
pursuant to subparagraph (III) or (IV) of this paragraph (f), the certified public accountant, certified
public accounting firm, or client thereof shall have
the opportunity to designate reports or working papers related to the attest function under subpoena
as privileged and confidential pursuant to this paragraph (f) or the open records laws, article 72 of title
24, C.R.S., in order to assure that the report or
working papers shall not be disseminated or otherwise republished and shall only be reviewed pursuant to limited authority granted to the board under
subparagraph (III) or (IV) of this paragraph (f).

59a
(IX) No later than thirty days after the board
of accountancy completes the investigation for
which records or working papers are subpoenaed
pursuant to subparagraph (III) or (IV) of this paragraph (f), the board shall return all original records,
working papers, or copies thereof to the certified
public accountant or certified public accounting
firm.
(X) Nothing in subparagraphs (III) and (IV) of
this paragraph (f) shall cause the accountant-client
privilege to be waived as to customer financial and
account information of depository institutions or to
the regulatory examinations and other regulatory
information relating to depository institutions.
(XI) For the purposes of subparagraphs (III)
to (X) of this paragraph (f), “entity” shall have the
same meaning as in section 7-90-102(20), C.R.S.
(g) A licensed psychologist, professional counselor, marriage and family therapist, social worker, or
addiction counselor, a registered psychotherapist, a
certified addiction counselor, a psychologist candidate registered pursuant to section 12-245-304(3), a
marriage and family therapist candidate registered
pursuant to section 12-245-504(4), a licensed professional counselor candidate registered pursuant to
section 12-245-604(4), or a person described in section 12-245-217 shall not be examined without the
consent of the licensee’s, certificate holder’s, registrant’s, candidate’s, or person’s client as to any communication made by the client to the licensee, certificate holder, registrant, candidate, or person or

60a
the licensee’s, certificate holders, registrant’s, candidate’s, or person’s advice given in the course of
professional employment; nor shall any secretary,
stenographer, or clerk employed by a licensed psychologist, professional counselor, marriage and family therapist, social worker, or addiction counselor,
a registered psychotherapist, a certified addiction
counselor, a psychologist candidate registered pursuant to section 12-245-304(3), a marriage and family therapist candidate registered pursuant to section 12-245-504(4), a licensed professional counselor
candidate registered pursuant to section 12-245604(4), or a person described in section 12-245-217
be examined without the consent of the employer of
the secretary, stenographer, or clerk concerning any
fact, the knowledge of which the employee has acquired in such capacity; nor shall any person who
has participated in any psychotherapy, conducted
under the supervision of a person authorized by law
to conduct such therapy, including group therapy
sessions, be examined concerning any knowledge
gained during the course of such therapy without
the consent of the person to whom the testimony
sought relates.
(h) A qualified interpreter, pursuant to section
13-90-202, who is called upon to testify concerning
the communications he interpreted between a hearing-impaired person and another person, one of
whom holds a privilege pursuant to this subsection
(1), shall not be examined without the written consent of the person who holds the privilege.
(i) A confidential intermediary, as defined in section 19-1-103(26), C.R.S., shall not be examined as

61a
to communications made to him or her in official
confidence when the public interests, in the judgment of the court, would suffer by the disclosure of
such communications.
(j)(I)(A) If any person or entity performs a voluntary self-evaluation, the person, any officer or employee of the entity or person involved with the voluntary self-evaluation, if a specific responsibility of
such employee was the performance of or participation in the voluntary self-evaluation or the preparation of the environmental audit report, or any consultant who is hired for the purpose of performing
the voluntary self-evaluation for the person or entity may not be examined as to the voluntary selfevaluation or environmental audit report without
the consent of the person or entity or unless ordered
to do so by any court of record, or, pursuant to section 24-4-105, C.R.S., by an administrative law
judge. For the purposes of this paragraph (j), “voluntary self-evaluation” and “environmental audit
report” have the meanings provided for the terms in
section 13-25-126.5(2).
(B) This paragraph (j) does not apply if the
voluntary self-evaluation is subject to an exception
allowing admission into evidence or discovery pursuant to the provisions of section 13-25-126.5(3) or
(4).
(II) This paragraph (j) applies to voluntary
self-evaluations that are performed on or after June
1, 1994.

62a
(k)(I) A victim’s advocate shall not be examined
as to any communication made to such victim’s advocate by a victim of domestic violence, as defined
in section 18-6-800.3(1), C.R.S., or a victim of sexual
assault, as described in sections 18-3-401 to 18-3405.5, 18-6-301, and 18-6-302, C.R.S., in person or
through the media of written records or reports
without the consent of the victim.
(II) For purposes of this paragraph (k), a “victim’s advocate” means a person at a battered
women’s shelter or rape crisis organization or a
comparable community-based advocacy program for
victims of domestic violence or sexual assault and
does not include an advocate employed by any law
enforcement agency:
(A) Whose primary function is to render
advice, counsel, or assist victims of domestic or family violence or sexual assault; and
(B) Who has undergone not less than fifteen hours of training as a victim’s advocate or, with
respect to an advocate who assists victims of sexual
assault, not less than thirty hours of training as a
sexual assault victim’s advocate; and
(C) Who supervises employees of the program, administers the program, or works under the
direction of a supervisor of the program.
(l)(I) A parent may not be examined as to any
communication made in confidence by the parent’s
minor child to the parent when the minor child and
the parent were in the presence of an attorney representing the minor child, or in the presence of a

63a
physician who has a confidential relationship with
the minor child pursuant to paragraph (d) of this
subsection (1), or in the presence of a mental health
professional who has a confidential relationship
with the minor child pursuant to paragraph (g) of
this subsection (1), or in the presence of a clergy
member, minister, priest, or rabbi who has a confidential relationship with the minor child pursuant
to paragraph (c) of this subsection (1). The exception
may be waived by express consent to disclosure by
the minor child who made the communication or by
failure of the minor child to object when the contents of the communication are demanded. This exception does not relieve any physician, mental
health professional, or clergy member, minister,
priest, or rabbi from any statutory reporting requirements.
(II) This exception does not apply to:
(A) Any civil action or proceeding by one
parent against the other or by a parent or minor
child against the other;
(B) Any proceeding to commit either the
minor child or parent, pursuant to title 27, C.R.S.,
to whom the communication was made;
(C) Any guardianship or conservatorship
action to place the person or property or both under
the control of another because of an alleged mental
or physical condition of the minor child or the minor
child’s parent;

64a
(D) Any criminal action or proceeding in
which a minor’s parent is charged with a crime committed against the communicating minor child, the
parent’s spouse, the parent’s partner in a civil union, or a minor child of either the parent or the parent’s spouse or the parent’s partner in a civil union;
(E) Any action or proceeding for termination of the parent-child legal relationship;
(F) Any action or proceeding for voluntary
relinquishment of the parent-child legal relationship; or
(G) Any action or proceeding on a petition
alleging child abuse, dependency or neglect, abandonment, or non-support by a parent.
(III) For purposes of this paragraph (l):
(A) “Minor child” means any person under
the age of eighteen years.
(B) “Parent” includes the legal guardian or
legal custodian of a minor child as well as adoptive
parents.
(C) “Partner in a civil union” means a person who has entered into a civil union in accordance
with the requirements of article 15 of title 14, C.R.S.
(m)(I) A law enforcement or firefighter peer support team member shall not be examined without
the consent of the person to whom peer support services have been provided as to any communication
made by the person to the peer support team member under the circumstances described in subsection
(1)(m)(III) of this section; nor shall a recipient of

65a
peer support services be examined as to any such
communication without the recipient’s consent.
(I.5) An emergency medical service provider or
rescue unit peer support team member shall not be
examined without the consent of the person to
whom peer support services have been provided as
to any communication made by the person to the
peer support team member under the circumstances
described in subsection (1)(m)(III) of this section;
nor shall a recipient of peer support services be examined as to any such communication without the
recipient’s consent.
(II) For purposes of this paragraph (m):
(A) “Communication” means an oral statement, written statement, note, record, report, or
document made during, or arising out of, a meeting
with a peer support team member.
(A.5) “Emergency medical service provider
or rescue unit peer support team member” means an
emergency medical service provider, as defined in
section 25-3.5-103(8), C.R.S., a regular or volunteer
member of a rescue unit, as defined in section 253.5-103(11), C.R.S., or other person who has been
trained in peer support skills and who is officially
designated by the supervisor of an emergency medical service agency as defined in section 25-3.5103(11.5), C.R.S., or a chief of a rescue unit as a
member of an emergency medical service provider’s
peer support team or rescue unit’s peer support
team.

66a
(B) “Law enforcement or firefighter peer
support team member” means a peace officer, civilian employee, or volunteer member of a law enforcement agency or a regular or volunteer member of a
fire department or other person who has been
trained in peer support skills and who is officially
designated by a police chief, the chief of the Colorado state patrol, a sheriff, or a fire chief as a member of a law enforcement agency’s peer support team
or a fire department’s peer support team.
(III) The provisions of this subsection (1)(m)
apply only to communications made during interactions conducted by a peer support team member:
(A) Acting in the person’s official capacity
as a law enforcement or firefighter peer support
team member or an emergency medical service provider or rescue unit peer support team member; and
(B) Functioning within the written peer
support guidelines that are in effect for the person’s
respective law enforcement agency, fire department, emergency medical service agency, or rescue
unit.
(IV) This subsection (1)(m) does not apply in
cases in which:
(A) A law enforcement or firefighter peer
support team member or emergency medical service
provider or rescue unit peer support team member
was a witness or a party to an incident which
prompted the delivery of peer support services;
(B) Information received by a peer support
team member is indicative of actual or suspected

67a
child abuse, as described in section 18-6-401; actual
or suspected child neglect, as described in section
19-3-102; or actual or suspected crimes against atrisk persons, as described in section 18-6.5-103;
(C) Due to alcohol or other substance intoxication or abuse, as described in sections 27-81111 and 27-82-107, C.R.S., the person receiving peer
support is a clear and immediate danger to the person’s self or others;
(D) There is reasonable cause to believe
that the person receiving peer support has a mental
health disorder and, due to the mental health disorder, is an imminent threat to himself or herself or
others or is gravely disabled as defined in section
27-65-102; or
(E) There is information indicative of any
criminal conduct.
(2) The medical records produced for use in the review provided for in subparagraphs (III), (IV), and
(V) of paragraph (d) of subsection (1) of this section
shall not become public records by virtue of such
use. The identity of any patient whose records are
so reviewed shall not be disclosed to any person not
directly involved in such review process, and procedures shall be adopted by the Colorado medical
board or state board of nursing to ensure that the
identity of the patient shall be concealed during the
review process itself.
(3) The provisions of subsection (1)(d) of this section
shall not apply to physicians required to make re-

68a
ports in accordance with section 12-240-139. In addition, the provisions of subsections (1)(d) and (1)(g)
of this section shall not apply to physicians or psychologists eligible to testify concerning a criminal
defendant’s mental condition pursuant to section
16-8-103.6. Physicians and psychologists testifying
concerning a criminal defendant’s mental condition
pursuant to section 16-8-103.6 do not fall under the
attorney-client privilege in subsection (1)(b) of this
section.

